No. 19-248
IN THE

WALIDJAMMAL, et al.,

V.

Petitioners,

AMERICAN FAMILY INSURANCE COMPANY, et al.,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE
I, Seth P. Waxman, a member of the bar of this Court, hereby certify that, on
this 25th day of October, 2019, all parties required to be served have been served copies
of the Brief in Opposition in this matter by overnight courier to the address below.
BRIAN HALLIGAN FLETCHER
STANFORD LAW SCHOOL SUPREME
COURT LITIGATION CLINIC

559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-3345
bfletcher@law.stanford.edu

SETHP. WAXMAN
WILMER CUTLERPICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, D.C. 20006
(202) 663-6000
seth.waxman@wilmerhale.com

